TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Used Information Technology Assets
                   Are Being Properly Donated; However,
                Disposition Procedures Need to Be Improved



                                           April 25, 2014

                              Reference Number: 2014-20-021




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


USED INFORMATION TECHNOLOGY                           technology equipment that cannot be located
ASSETS ARE BEING PROPERLY                             are written off; however, these lost items are not
DONATED; HOWEVER, DISPOSITION                         reported to the Computer Security Incident
PROCEDURES NEED TO BE IMPROVED                        Response Center as required.
                                                      Further, documentation of disposal actions can
                                                      be improved, and the inventory system does not
Highlights                                            archive electronic asset disposal data.

Final Report issued on April 25, 2014                 WHAT TIGTA RECOMMENDED
                                                      TIGTA recommended that the Chief,
Highlights of Reference Number: 2014-20-021           Agency-Wide Shared Services, reemphasize the
to the Internal Revenue Service Chief                 importance of completing new disposal forms
Technology Officer and the Chief, Agency-Wide         when changes are identified and ensure that
Shared Services.                                      updated procedures reflect the policy change
IMPACT ON TAXPAYERS                                   requiring the use of Standard Form-122,
                                                      Transfer Order Excess Personal Property, when
The IRS Information Technology and                    transferring Federal electronic assets. TIGTA
Agency-Wide Shared Services organizations             recommended that the Chief Technology Officer
work together to dispose of the IRS’s information     ensure that offices complete and maintain
technology equipment. If the IRS’s processes          documentation for each asset to provide an
associated with the disposition of its information    audit trail regarding the sanitizing and verifying
technology equipment are not effective, the risk      of storage media, report lost or stolen
of loss, theft, or inadvertent release of sensitive   information technology equipment within
information is increased, which can reduce the        one hour after detection, and report assets
public’s confidence in the IRS’s ability to           written off as lost to the Computer Security
effectively monitor and use its resources.            Incident Response Center and TIGTA. Finally,
                                                      the Chief Technology Officer should ensure that
WHY TIGTA DID THE AUDIT                               the Knowledge Incident/Problem Services Asset
This audit is included in TIGTA’s Fiscal              Management (KISAM) system's archiving
Year 2014 Annual Audit Plan and addresses the         mechanism is developed.
major management challenge of Security for            IRS management agreed with our
Taxpayer Data and Employees. The overall              recommendations. The IRS plans to update its
objectives of this review were to validate the        standard operating procedures to ensure that
accuracy of the disposal asset inventory and          disposal forms are free of all edits and markups.
determine the effectiveness of the IRS’s actions      Contingent upon funding availability, the IRS
taken or planned to fulfill the requirements set      plans to enhance the KISAM to include an
forth by the General Services Administration.         electronic form to document storage media
WHAT TIGTA FOUND                                      sanitization for each asset, update procedures to
                                                      require that Computer Security Incident
While the IRS is complying with requirements to       Response Center and TIGTA report numbers
donate its previously used information                are documented prior to finalizing the asset
technology equipment to non-Federal recipient         record as lost, and ensure that the KISAM
organizations, there are several processes            system’s archiving mechanism is developed so
associated with asset disposal that need              that the information technology asset data can
improvement. For example, improved                    be effectively managed in accordance with the
documentation is needed to ensure compliance          IRS’s Records Control Schedule. Finally, the
with media sanitization guidelines.                   IRS plans to issue an employee communique
                                                      reinforcing existing policy for reporting lost or
Controls over the processing of Federal               stolen information technology equipment.
electronic assets reported as missing, lost, or
stolen can be strengthened. Information
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 25, 2014


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER
                CHIEF, AGENCY-WIDE SHARED SERVICES


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Used Information Technology Assets Are Being
                             Properly Donated; However, Disposition Procedures Need to Be
                             Improved (Audit # 201320022)

 This report presents the results of our review to validate the accuracy of the disposal asset
 inventory and determine the effectiveness of the Internal Revenue Service’s (IRS) actions taken
 or planned to fulfill the requirements set forth by General Services Administration Bulletin FMR
 [Federal Management Regulation] B-34. This audit is included in the Treasury Inspector
 General for Tax Administration’s Fiscal Year 2014 Annual Audit Plan and addresses the major
 management challenge of Security for Taxpayer Data and Employees.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Alan Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services).
                    Used Information Technology Assets Are Being Properly Donated;
                         However, Disposition Procedures Need to Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Federal Electronic Assets Are Reused and Donated;
          However, Program Improvements Can Be Made ......................................... Page 5
                    Recommendation 1:........................................................ Page 7

          Improved Documentation Is Needed to Ensure
          Compliance With Media Sanitization Guidelines......................................... Page 7
                    Recommendation 2:........................................................ Page 8

          Controls Over Processing Federal Electronic Assets
          Reported As Missing/Lost/Stolen Can Be Strengthened .............................. Page 9
                    Recommendations 3 through 5:......................................... Page 10

          Documentation of Disposal Actions Can Be Improved ................................ Page 10
                    Recommendations 6 and 7: .............................................. Page 12

          The Inventory System Currently Does Not Archive
          Electronic Asset Disposal Data ..................................................................... Page 12
                    Recommendation 8:........................................................ Page 13


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Sample Certification Letter .................................................. Page 19
          Appendix V – Flowchart of Disposal Process .............................................. Page 20
          Appendix VI – Management’s Response to the Draft Report ...................... Page 21
        Used Information Technology Assets Are Being Properly Donated;
             However, Disposition Procedures Need to Be Improved




                        Abbreviations

CSIRC             Computer Security Incident Response Center
FEA               Federal Electronic Asset
FMR               Federal Management Regulation
FY                Fiscal Year
GSA               General Services Administration
IRM               Internal Revenue Manual
IRS               Internal Revenue Service
IT                Information Technology
ITAMS             Information Technology Asset Management System
KISAM             Knowledge Incident/Problem Services Asset Management
NIST              National Institute of Standards and Technology
REFM              Real Estate and Facilities Management
SF                Standard Form
TIGTA             Treasury Inspector General for Tax Administration
UNS               User and Network Services
                Used Information Technology Assets Are Being Properly Donated;
                     However, Disposition Procedures Need to Be Improved




                                           Background

In October 2009, President Obama signed into law Executive Order 13514, Federal Leadership
in Environmental, Energy, and Economic Performance,1 with the intent to create a clean energy
economy that would increase the Nation’s prosperity, promote energy security, protect the
interest of taxpayers, and safeguard the health of our environment. Executive Order 13514 also
states that the Federal Government is to lead by example. To fulfill Executive Order 13514’s
requirements, the General Services Administration (GSA) developed guidance for Federal
agencies to follow that included establishing a comprehensive and transparent Governmentwide
policy on used Federal electronics that maximizes reuse, clears data and information stored on
used equipment, and ensures that all Federal electronics are processed by certified recyclers.
On February 29, 2012, the GSA issued GSA Bulletin FMR [Federal Management Regulation]
B-34, Disposal of Federal Electronic Assets, which identifies specific categories of property2
targeted as Federal Electronic Assets (FEA) for disposal under the provisions of the bulletin. In
addition, GSA Bulletin FMR B-34 reminds Federal agencies to follow the National Institute of
Standards and Technology (NIST) recommendations for cleaning storage media (e.g., hard
drives), establishes the due date for filing annual reports with the GSA, and provides a sequence
for disposing of FEAs. The sequence for disposing of property encourages Federal agencies to
use every opportunity to reuse its functional FEAs (either within the agency or by transferring it
to another agency or donating the equipment to an eligible nonprofit organization). If an agency
decides the FEA should be abandoned or destroyed, then it must provide the FEA to a certified
recycler or refurbisher. The Internal Revenue Service (IRS) primarily relies on three
organizations for recycling/refurbishing its FEAs: Mission West Virginia Inc.; Per Scholas; and
Federal Prison Industries (also known as and hereafter referred to as UNICOR). The IRS also
donates FEAs to the Comp 4 Kids organization under the Computers for Learning authority.3
In Fiscal Year4 (FY) 2011, the IRS implemented a new software tool to track its information
technology asset inventory – the Knowledge Incident/Problem Services Asset Management
(KISAM) system. Prior to deployment, the IRS migrated inventory data from its predecessor
system, the Information Technology Asset Management System (ITAMS). However, assets that



1
  Exec. Order No. 13514, Federal Leadership in Environmental, Energy, and Economic Performance,
3 C.F.R. 52117 (2009).
2
  Examples include Federal Supply Class 3610 – copiers and Federal Supply Group 70 – desktop/laptop computers,
printers, peripherals, and electronic components.
3
  See Computers for Learning website: www.computers.fed.gov.
4
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
                                                                                                        Page 1
                 Used Information Technology Assets Are Being Properly Donated;
                      However, Disposition Procedures Need to Be Improved



were in a final disposition status5 were not migrated over to the KISAM system and remained
available in a separate database for research after the ITAMS application was taken offline in
March 2012.
During FYs 2009 through 2012, the IRS retired more than 152,000 FEAs. Table 1 provides our
analysis of the number of retired FEAs by type of asset. This table shows that desktop and
laptop computers top the list with more than 63,000 and 44,000, respectively.
                        Table 1: Number of Retired FEAs by Asset Type
                                            (FYs 2009 through 2012)

                              Asset Type                 Number of Items Retired
                        Desktop Computers                             63,031
                        Laptop Computers                              44,734
                        Printers6                                     39,073
                        Servers                                        4,335
                        Copiers7                                          836
                        Total                                       152,009
                       Source: Treasury Inspector General for Tax Administration (TIGTA)
                       analysis of ITAMS information dated March 2012 and KISAM system
                       information dated August 2012.

Two organizations within the IRS share responsibility for disposing of FEAs: 1) User and
Network Services (UNS) within the Information Technology (IT) organization and 2) Real
Estate and Facilities Management (REFM) within the Agency-Wide Shared Services
organization. Within the UNS organization, the Service Asset and Configuration Management
organization’s Hardware Asset Management office is responsible for providing oversight,
coordination, and guidance on managing the information technology equipment enterprise-wide.
This includes developing asset management policies, developing and improving processes for
asset management and control, and working closely with asset owners enterprise-wide.
The REFM organization helps the IRS mission by providing policy, oversight, and strategic
planning for the agency’s personal property assets. IRS management indicated that in FY 2012
the REFM organization implemented new policies and procedures to enhance the organization’s
supporting operations. For example, the REFM organization:



5
  Assets with a disposal code assignment indicating the assets are no longer in the IRS’s inventory.
6
  Printers such as desktop, portable, network, and specialized.
7
  Copiers consist of floor/table models and color/noncolor.
                                                                                                       Page 2
              Used Information Technology Assets Are Being Properly Donated;
                   However, Disposition Procedures Need to Be Improved



      Designed, developed, and launched a website for REFM Property and Asset
       Management, which is a “one-stop-shop” for all stakeholders.
      Managed aged assets awaiting final disposition by reducing the percentage of aged assets
       from approximately 50 percent to 5 percent over 18 months.
      Provided Property Officers with the IRS’s Property Management and KISAM system
       Asset Manager Training, GSA’s GSAXcess training, and a detailed Property Review
       Checklist.
      Conducted research to ensure that new sources, such as the U.S. Postal Service and
       Computers for Youth, have an opportunity to receive FEAs to help fulfill their missions.
During FYs 2010 and 2011, the UNS organization reorganized to become a high-performing
organization built upon reengineered service delivery processes, updated technology tools, and
industry best practices. Under this new blueprint, the UNS organization established six field
operations areas and four depot locations (Brookhaven, New York; Memphis, Tennessee; Austin,
Texas; and Ogden, Utah) and subsequently centralized the disposition of its laptop and desktop
computers at two of the depot locations. Additionally, one of the two depots has responsibility
for assisting and coordinating with other offices regarding the disposition of other information
technology equipment. In addition, the REFM organization has employees in each field
operations area and at each depot location to facilitate asset management through a life cycle
approach toward the effective and efficient accountability, use, maintenance, protection, transfer,
and disposition of personal property in accordance with governing Federal regulations. Finally,
IRS management stated that the REFM organization supports the IRS goals, objectives, and
recycling efforts of the Federal management of personal property by:
      Managing its inventory effectively.
      Maximizing reuse of information technology assets.
      Enhancing the recycling of information technology assets to meet national disposition
       objectives.
      Ensuring that property managers are well trained.
The IT organization initiates the disposal process by identifying equipment that is beyond its
useful life. It then completes the required paperwork and ensures that storage media has been
sanitized. Upon completion of these actions, the IT organization updates the KISAM system
inventory to reflect that the disposed property belongs to the REFM organization. The REFM
organization maintains control of the equipment throughout the remainder of the disposal
process. Appendix V provides a flowchart detailing this process.




                                                                                            Page 3
              Used Information Technology Assets Are Being Properly Donated;
                   However, Disposition Procedures Need to Be Improved



This review was performed in the UNS and REFM organizations’ offices located at the Austin
Campus in Austin, Texas; the Brookhaven Campus in Islip, New York; and the New Carrollton
Federal Building in New Carrollton, Maryland, during the period October 2012 through
December 2013. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                        Page 4
                   Used Information Technology Assets Are Being Properly Donated;
                        However, Disposition Procedures Need to Be Improved




                                       Results of Review

Federal Electronic Assets Are Reused and Donated; However,
Program Improvements Can Be Made
IRS management advised that they had written agreements to donate FEAs for reuse and recycle
with three organizations: Mission West Virginia Inc.; Per Scholas; and UNICOR. However, the
agreements were still in draft status and undergoing revision at the conclusion of our audit work.
In the absence of the written agreements, IRS management provided us with certificates
demonstrating that UNICOR had been certified under the Responsible Recycling Program and
that Per Scholas had been certified under the e-Stewards Certification Program.8 Although we
did not receive a similar certification for Mission West Virginia Inc., IRS management indicated
this organization was registered as a Microsoft refurbisher.
As previously mentioned, GSA Bulletin FMR B-34 encourages Federal agencies to use every
opportunity to reuse or donate their FEAs. Table 2 highlights three organizations that received
the majority of the IRS donations, in terms of original acquisition cost. The figures presented in
Table 2 also show that the IRS was donating/reusing its FEAs prior to Executive Order 13514
taking affect in FY 2010.
                      Table 2: Top Three Organizations Receiving FEAs
                                    (original acquisition cost) 
             Organization9                 FY 2009            FY 2010            FY 2011            FY 2012
     Comp 4 Kids                                              $4,867,960        $10,523,696        $10,936,297
     Mission West Virginia Inc.           $97,895,576       $12,530,868         $41,909,067         $9,823,660
     Per Scholas                          $15,410,144         $5,500,495           $433,362           $329,510
     Total Original Acquisition
     Cost of Items Donated to the
                                         $113,305,720       $22,899,323         $52,866,125        $21,089,467
     Top Three Non-Federal
     Agencies
    Source: TIGTA analysis of annual reports filed with the GSA.



8
  The e-Stewards Certification Program is designed to enable individuals and organizations that dispose of their old
electronic equipment to identify easily recyclers that adhere to the highest standard of environmental responsibility
and worker protection. The e-Stewards Certification is open to electronics recyclers, refurbishers, and processors.
9
  The IRS also donates information technology assets to UNICOR. These donations are reported by UNICOR on its
annual report; therefore, the IRS does not report the donations to avoid double counting.
                                                                                                             Page 5
                 Used Information Technology Assets Are Being Properly Donated;
                      However, Disposition Procedures Need to Be Improved



GSA Bulletin FMR B-34 encourages agencies to use every opportunity to participate in reusing
and donating equipment; however, the current annual reporting mechanism only captures the
name of the non-Federal recipient, the classification of the donated equipment, the authority used
to donate the equipment, and the total original acquisition cost of the donated or reused items.
Without a count of the number of FEAs donated or reused, the IRS and the GSA cannot fully
measure progress in complying with GSA Bulletin FMR B-34. A more meaningful measure
would be to provide a count of the number of FEAs donated or reused. For example, the
Environmental Protection Agency sponsors a program called the Federal Electronics Challenge,10
which requires agency participants to complete an annual report to measure progress against
program goals, and the report requires agencies to provide the number of items donated or
reused.
Further, the IRS cannot accurately report whether it donated FEAs as part of the Computers for
Learning Program or used a certified recycler as required by GSA Bulletin FMR B-34. While
the GSA Annual Report of Property Furnished to Non-Federal Recipients includes a column for
disclosing the type of authority11 the IRS exercised when disposing of its FEAs, the instructions
distributed to the REFM organization employees did not include specific guidance to ensure that
the employees correctly and consistently recorded the authority that permitted the transfer of the
FEAs. In addition, the instructions stated that the information needed to complete the annual
reports could be found in the property disposal records maintained by each office. However, the
disposal records maintained by each office do not provide information that identifies the
authority that permitted the equipment transfer. Instead, the employee must rely on the limited
available information (e.g., name of the recipient organization, condition code status of the
information technology equipment) to complete the authority section of the annual report.
As a result, the FY 2012 Annual Report of Property Furnished to Non-Federal Recipients had
multiple entries for Mission West Virginia Inc. showing it received FEAs under the following
authorities: Certified R2 Recycler; Certified Recycler – Other; and Computers for Learning
Program. Although it is possible for Mission West Virginia Inc. to receive property for
educational purposes and for recycling of parts, there is currently no process in place for
employees to ensure the accuracy of authorities recorded on the annual report. If the appropriate
authorities are not captured, it will be difficult for the IRS to show it complies with GSA Bulletin
FMR B-34 and Executive Order 13514.
Upon this discovery, IRS management implemented corrective actions for FY 2013 annual
reporting. The REFM organization issued to its property officers internal guidance on how to
use the “Authority” field and to add a column to their log/spreadsheet for each transaction to


10
   The Federal Electronics Challenge assists Federal agencies and facilities in meeting the goals of Executive
Order 13514 and facing the challenges posed by electronics acquisition, use, and disposal.
11
   The authority describes the type of non-Federal recipient receiving the property. Examples include, Computers
for Learning Program – EO12999, Certified R2 Recycler, and Certified Recycler – Other.
                                                                                                           Page 6
              Used Information Technology Assets Are Being Properly Donated;
                   However, Disposition Procedures Need to Be Improved



identify the “Authority” for which the FEAs were donated to ensure consistency when preparing
the annual property reports for the GSA.

Recommendation
Recommendation 1: The Chief, Agency-Wide Shared Services, should require offices
responsible for disposal of Federal Electronic Assets to maintain a count of the number of FEAs
donated to non-Federal recipients. The GSA Office of Personal Property Policy Division
Utilization and Disposal should also be contacted to determine if information on the number of
FEAs donated to non-Federal recipients would add value to the GSA annual reporting process.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       maintain a count of FEAs transferred to non-Federal recipients. The IRS will also
       contact the GSA Office of Personal Property Policy Division with TIGTA’s
       recommendation and inquire whether the FEA count could add value to the Federal
       agencies’ annual property reports.

Improved Documentation Is Needed to Ensure Compliance With
Media Sanitization Guidelines
GSA Bulletin FMR B-34 encourages agencies to follow the recommendations outlined in
NIST 800-88, Guidelines for Media Sanitization, and to develop consistent agency practices to
clean hard drives and other storage devices in order to protect sensitive data. Section 4.8 of
NIST 800-88 states that a Certificate of Sanitization (see Appendix IV for a sample) should be
completed for each piece of electronic media that has been sanitized. The guidance further states
that the decision regarding completion of a certificate depends upon the confidentiality level of
the data on the media and suggests the documentation can be in either paper or electronic form.
Internal Revenue Manual (IRM) sections 10.8.1, Information Technology Security, and 2.14.1,
Asset Management, state that a letter or form stipulating that the sanitization and verification
procedures have been complied with shall be signed by the responsible person who performed
the procedures and shall accompany the device when it is turned in for disposal.
While the IRS uses the appropriate disk wipe utility or degaussing techniques to sanitize storage
media, it needs better documentation to confirm each piece of electronic media has been
sanitized. The IRS includes a certification statement on its documentation when disposing of
FEAs, as follows:
       I certify that all IT equipment with permanent data/media storage listed on this
       form have been removed or wiped clean of any sensitive or proprietary
       information and software by use of a disk wipe utility according to the governing
       IRM policy and procedures, and verification of this removal or wiping has been
       performed.

                                                                                           Page 7
                 Used Information Technology Assets Are Being Properly Donated;
                      However, Disposition Procedures Need to Be Improved



IRS personnel believe this certification statement complies with the requirements outlined in
NIST 800-88. The current certification statement is computer generated by the automated
Standard Form (SF)-120, Report of Excess Personal Property, database program. According to
instructions for this program, users will be prompted with a question asking if they are
“excessing computer processing units.”12 If the SF-120 contains computers with data or storage
media, the user should answer yes. Based on our review of disposal documentation, it is not
uncommon for this documentation to contain hundreds of line items of information technology
equipment and FEAs. Sometimes the documents contain all computers, other times the
documents contain a mix of assets including computers, smartphones, printers, and fax machines.
We observed the sanitization and verification process at one of the two depot locations.13 One
individual sanitized the storage media of those items prepared for disposal, while another
individual verified the sanitization by reviewing the hard drive sectors to ensure that all data had
been wiped.14 The individuals would document the completion of this process by placing a
sticker on the equipment and including their initials and date of completion. Another individual,
separate from this process, would complete the disposal documentation using the automated
SF-120 database program. Although that individual worked in the same group with the
employees doing the sanitization and verification, that individual did not physically verify the
items to ensure that they included the stickers prior to completing the form and including the
certification statement. Further, after the information technology equipment leaves the IRS,
there is no longer any evidence available to show the dates when the sanitization and verification
occurred and to ensure that the process was completed by independent parties.
The confidential and proprietary nature of the data stored on IRS media devices places these
devices at a higher risk if the sanitization and verification process is not properly completed.
Although we did not observe any adverse conditions during our audit, we believe the IRS needs
to implement a more rigorous documentation standard to demonstrate it took appropriate actions
to sanitize and verify storage devices prior to those devices leaving the IRS. This documentation
should be retained with the disposal documentation for the asset.

Recommendation
Recommendation 2:  The Chief Technology Officer should ensure that offices complete a
separate letter or form for each asset and maintain this documentation to provide an audit trail for
the process of sanitizing and verifying storage media.



12
   The excessing of computer processing units refers to computers with data/media storage units to be disposed of on
SF-120, Form 1933, Report of Survey, and Miscellaneous Form.
13
   We could not observe the process at the second location because of a moratorium on sanitizing storage media that
went into effect shortly before our visit.
14
   If a storage device was not wiped after two attempts, the depot would send it to another location for degaussing.
                                                                                                            Page 8
                 Used Information Technology Assets Are Being Properly Donated;
                      However, Disposition Procedures Need to Be Improved



         Management’s Response: The IRS agreed with this recommendation. Contingent
         upon funding availability, the IRS will enhance the existing process to include an
         electronic form within KISAM to document storage media sanitization for each asset.

Controls Over Processing Federal Electronic Assets Reported As
Missing/Lost/Stolen Can Be Strengthened
In a prior report,15 we reported that the IRS did not perform sufficient steps to locate information
technology assets in a missing status prior to writing off the equipment as lost. The IRS agreed
to take corrective action to develop a report that would include appropriate data to help facilitate
researching and resolving these assets. During our current review of the disposal process, we
judgmentally selected16 43 FEAs that were reported in a missing, lost, or stolen status to ensure
compliance with procedures. Our review found the following:
        7 FEAs were not reported to the Computer Security Incident Response Center (CSIRC).
        14 FEAs were not timely reported to the CSIRC.
        16 FEAs were not reported to TIGTA.
        2 FEAs could not be evaluated for timeliness because the forms either did not capture the
         date or the time the incident was reported.
IRM 10.8.1.4.8, Incident Response, states that all employees and contractors shall report
computer security incidents to the IRS’s CSIRC within one hour after detection. The IRM
defines the loss or theft of information technology equipment as a reportable incident, especially
when the loss or theft could result in unauthorized access to systems, IRS information, or an
individual’s Personally Identifiable Information. In addition, IRM 2.14.1.13.20.4, Asset
Management, Information Technology (IT) Asset Management,17 states that all lost and stolen
incidents of information technology equipment must also be reported to TIGTA.
For the 14 FEAs that were not timely reported to the CSIRC, the lateness ranged from
103 minutes to 24 days after the incident was detected. Timely reporting of security incidents
ensures that the CSIRC can take the necessary steps to disable devices and reduce the potential
for unauthorized access or a data breach.
A further review of the disposal documentation associated with the 14 FEAs that were not timely
reported to the CSIRC identified that these items were written off by the IRS after doing research
to locate the assets. We also identified 878 other information technology assets that were


15
   TIGTA, Ref. No. 2013-20-089, Weaknesses in Asset Management Controls Leave Information Technology Assets
Vulnerable to Loss p. 13 (Sept. 2013).
16
   A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
17
   All subsequent references to IRM 2.14.1.13 are from this titled section.
                                                                                                            Page 9
                    Used Information Technology Assets Are Being Properly Donated;
                         However, Disposition Procedures Need to Be Improved



included in these disposal documents and written off the inventory system as lost because the
IRS lost accountability for these assets.

Recommendations
The Chief Technology Officer should:
Recommendation 3:  Reemphasize the importance of reporting lost or stolen information
technology equipment within one hour after detection.
           Management’s Response: The IRS agreed with this recommendation. The IRS will
           issue an employee communique reinforcing existing policy for reporting lost or stolen
           information technology equipment. Contingent upon funding availability, the IRS will
           implement a KISAM enhancement to report and monitor the IRS’s compliance with
           existing policy.
Recommendation 4: Update procedures to ensure that information technology assets written
off as lost are reported to the CSIRC and TIGTA.
           Management’s Response: The IRS agreed with this recommendation. Contingent
           upon funding availability, the IRS will update procedures to require the CSIRC and
           TIGTA report numbers be documented in the KISAM prior to finalizing the asset record
           as lost.
Recommendation 5: Ensure that incidents involving the loss or theft of information
technology equipment are reported to TIGTA.
           Management’s Response: The IRS agreed with this recommendation. Contingent
           upon funding availability, the IRS will require the TIGTA report number be documented
           in the KISAM for all equipment reported as lost or stolen to the Information Technology
           organization.

Documentation of Disposal Actions Can Be Improved
We selected a judgmental sample of 90 FEAs in a pending18 and final disposition status and
identified several areas in 79 of the cases in which the IRS can improve its documentation for
these actions. For example, two of the FEAs we selected for review were associated with
disposal documents that contained assets that were blacked out. Of the 369 assets reflected on
these disposal documents and shown as being transferred outside the IRS, 56 were blacked out
without any notations or explanations indicating what had happened to these assets. When we
asked the IRS to explain the circumstances surrounding the blacked-out assets, it could not recall
because of the time that had elapsed.

18
     Assets with a disposal code assignment indicating the assets are still in the IRS’s inventory awaiting disposal.
                                                                                                                Page 10
               Used Information Technology Assets Are Being Properly Donated;
                    However, Disposition Procedures Need to Be Improved



Prior to the transfer of the information technology equipment from the UNS organization to the
REFM organization, both parties verify the barcode and serial number of the items listed on the
SF-120 to ensure that all items have been properly accounted for. According to
IRM 2.14.1.13.20.2, any corrections, additions, or deletions of items on the SF-120 will require
IT organization staff to either redo the original SF-120 to match the items verified or to complete
a second SF-120 if additional items are found. Not complying with the procedures to redo the
SF-120 or not having an explanation documented on the SF-120 describing the circumstance for
the blacked-out assets increases the risk or likelihood that these assets could have been stolen.
We also identified inconsistencies outlined in the procedures regarding the types of disposal
documents to use when transferring FEAs from the IRS. For example, if the IRS decides it
needs to return an item to the vendor, the procedures state that a Form 1933, Report of Survey, or
a Miscellaneous Form should be completed. Whereas if the IRS decides to donate its FEAs to a
non-Federal recipient organization, the procedures state that an SF-122, Transfer Order Excess
Personal Property, should be completed and a signature/date obtained from a representative of
the organization accepting the equipment. IRS management took corrective action to change the
procedures to ensure that the SF-122 would be used to document all transfers of FEAs. This
corrective action became effective in September 2013.
Throughout our review, we shared our concerns about other discrepancies we identified relating
to the documentation supporting the disposition of FEAs. The following list represents
additional management actions taken by the IRS to correct these discrepancies:
     According to IRM 2.14.1.13.20.2, the disposal documentation should contain the
      following data to describe the items being disposed: barcode, serial number, category,
      manufacturer, and model. Our review of disposal documentation for the 79 previously
      examined FEAs indicated 58 did not reflect the manufacturer for the items. The IRS
      agreed with this observation and modified its SF-120 program to ensure that the
      manufacturer name is included on future SF-120 reports.
     IRM 2.14.1.13.12.7 states that the disposition of equipment depends on the overall
       condition of the equipment at the time of disposition. Specific codes are entered into the
       KISAM system that describe the condition of the property. As an example, condition
       code 4 means the equipment shows some wear but it can be used without significant
       repair. Further, GSA Bulletin FMR B-34 specifically encourages agencies to reuse or
       donate FEAs in specific condition codes. We raised concerns that there was no clear
       guidance in the IRM to explain how the condition codes should be applied to ensure
       consistency. We also identified some discrepancies in which the condition code in the
       inventory system did not align with how the item was disposed. For example, an item
       that was reflected as repairable and that should have been donated was disposed of as
       scrap. IRS management recognizes there should be a better understanding of the
       condition codes and has included this item as an agenda item in upcoming meetings with
       personnel.

                                                                                           Page 11
                 Used Information Technology Assets Are Being Properly Donated;
                      However, Disposition Procedures Need to Be Improved



Recommendations
Recommendation 6: The Chief Technology Officer should reemphasize the importance of
completing new disposal forms when changes are identified.
        Management’s Response: The IRS agreed with this recommendation. The IRS will
        update its standard operating procedures to prohibit edits and markups of previously
        completed disposal forms.
Recommendation 7: The Chief, Agency-Wide Shared Services, should ensure that IRM
procedures are updated to reflect the recent policy change requiring the use of SF-122 when
transferring or donating FEAs.
        Management’s Response: The IRS agreed with this recommendation and will
        ensure that the policy guidance provided to the REFM territories on September 23, 2013,
        is included in the next revision of IRM 1.14.4, Personal Property Management, Real
        Estate and Facilities Management.

The Inventory System Currently Does Not Archive Electronic Asset
Disposal Data
Section 17 of the IRS Records Control Schedule19 provides details regarding the retention
requirements for electronic and paper records. It states that system data associated with the asset
should be retained until three years after disposition.
When the IRS went live with a new system of records known as the KISAM system in
August 2011, assets in retired status were not migrated to the KISAM system. This left
400,000 information technology assets in a final disposition status in the predecessor system
ITAMS because the KISAM system archive mechanism had not been completed.20
The IRS interim archiving process being used includes maintaining the asset information that
was not migrated from the ITAMS as raw data in an Oracle® database. The data are retrievable
only by a person who knows the Oracle software, placing a hardship on the organizations that
may need easy access to the information in order to complete supplemental assignments.
According to IRS management, there is no urgent need to develop the archiving mechanism
because data in the KISAM system database have not yet reached the retention requirements for
assets placed in final disposition. The KISAM system would be updated with the archiving
requirement in Release 2. However, until this development is completed, the IRS will just retain

19
   A document that provides mandatory instructions for what to do with records (and nonrecord materials) no longer
needed for current Government business.
20
   TIGTA, Ref. No. 2013-20-089, Weaknesses in Asset Management Controls Leave Information Technology Assets
Vulnerable to Loss p. 6 (Sept. 2013).
                                                                                                         Page 12
              Used Information Technology Assets Are Being Properly Donated;
                   However, Disposition Procedures Need to Be Improved



all asset records in the KISAM system database. While IRS management decided not to
implement the KISAM system with an archiving capability, this functionality will be needed in
the future to ensure the effectiveness and efficiency of the KISAM system and the research of
disposed assets records.

Recommendation
Recommendation 8:  The Chief Technology Officer should ensure that the KISAM system’s
archiving mechanism is developed so that information technology asset data can be effectively
managed in accordance with the IRS’s Records Control Schedule.
       Management’s Response: IRS agreed with this recommendation. Contingent upon
       funding availability, the IRS will ensure that the KISAM system’s archiving mechanism
       is developed so that the information technology asset data can be effectively managed in
       accordance with the IRS’s Records Control Schedule.




                                                                                        Page 13
                 Used Information Technology Assets Are Being Properly Donated;
                      However, Disposition Procedures Need to Be Improved



                                                                                                  Appendix I

        Detailed Objectives, Scope, and Methodology

Our overall objectives were to validate the accuracy of the disposal asset inventory and
determine the effectiveness of the IRS’s actions taken or planned to fulfill the requirements set
forth by GSA Bulletin FMR B-34. To accomplish our objectives, we:
I.      Verified the accuracy of the KISAM system disposed asset inventory that migrated from
        the ITAMS.
        A. Identified the criteria for maintaining electronic records for disposed assets.
        B. Interviewed IRS personnel to identify any recent changes/decisions to the electronic
           records retention criteria.
        C. Used migration criteria obtained during a prior audit,1 analyzed ITAMS retired assets,
           and identified the population of retired assets in the ITAMS.
        D. Evaluated the results from Step I.C. and identified the number of assets that met the
           electronic records management criteria.
        E. Selected a judgmental sample2 of 30 assets from 423,377 assets identified from
           Step I.D. and reviewed disposal documentation to confirm the accuracy of their
           retired status. Some of the criteria considered for our judgmental sample included
           assets with disposal codes 09 (in process of excess) and 16 (missing); assets with a
           physical inventory date (i.e., manual touch date, Tivoli scan date, barcode scan date,
           self-certification date) subsequent to the disposal date; and assets with a missing or
           invalid disposal report number.
        F. Matched ITAMS retired assets to the KISAM system and identified records that
           migrated to the KISAM system. (Note: According to the IRS, the only records that
           migrated to the KISAM system were those assets in the ITAMS as disposal code 09
           (in process of excess) and 16 (missing)).
II.     Evaluated whether the IRS used every opportunity to reuse functional FEA in accordance
        with the requirements outlined in GSA Bulletin FMR B-34.
        A. Interviewed REFM organization personnel to understand their role in the disposal of
           FEAs.

1
  TIGTA, Ref. No. 2013-20-089, Weaknesses in Asset Management Controls Leave Information Technology Assets
Vulnerable to Loss (Sept. 2013).
2
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                           Page 14
              Used Information Technology Assets Are Being Properly Donated;
                   However, Disposition Procedures Need to Be Improved



       B. Interviewed IT organization personnel to understand their role in following
          NIST 800-88, Guidelines for Media Sanitation, for FEAs.
       C. Identified the organizations the IRS used to recycle its FEAs and validated that they
          met GSA’s certification requirement, e.g., Responsible Recycling or e-Stewards
          Certification Programs.
       D. Reviewed copies of annual reports submitted by the IRS to the Department of the
          Treasury/GSA for FYs 2009 through 2012 to evaluate the volume of equipment
          provided to schools or other organizations. We obtained supporting documentation
          for these summary reports and/or compared these volumes to the ITAMS and KISAM
          system data.
       E. Analyzed the ITAMS and KISAM system data for FEA items with condition codes 1
          (New), 4 (Usable), and 7 (Repairable) to identify any trends for FYs 2009 through
          2012. For FY 2012 disposals, we obtained disposal documentation to identify how
          the equipment was disposed, e.g., donated to a school, transferred for
          refurbishing/reuse.
III.   Assessed the effectiveness of the controls over the disposition of FEAs to ensure that the
       assets and their data are safeguarded from fraud, waste, abuse, and/or the inadvertent
       disclosure of Personally Identifiable Information.
       A. Compared REFM organization procedures for asset disposal to the policy outlined in
          GSA Bulletin FMR B-34.
       B. Compared REFM and IT organizations’ asset disposal procedures.
       C. Analyzed data from the KISAM system Asset Manager to identify the population and
          potential trends/irregularities of FEAs classified as pending or final disposition.
       D. Using data from Step III.C., selected a judgmental sample of 30 of 60 final excessed
          FEAs from the Brookhaven Campus in Islip, New York. Our selection criteria
          included consideration of the following: FEAs in disposal codes other than 00
          (transfer to the Agency-Wide Shared Services organization) and 09 (in process of
          excess), assets with an inventory verification date subsequent to the disposal action,
          assets with missing or invalid disposal report numbers, and assets with an acquisition
          and disposal date within the same year.
       E. Using the data from Step III.C., selected a judgmental sample of 30 of 60 FEAs
          pending disposal at the Brookhaven Campus. Selection criteria included
          consideration of the following: FEAs in disposal codes 00 (transfer to the
          Agency-Wide Shared Services organization) and 09 (in process of excess), assets that
          contained a future warranty expiration date, e.g., FYs 2013 or 2014, and acquisition
          and disposal date within the same year.

                                                                                          Page 15
                 Used Information Technology Assets Are Being Properly Donated;
                      However, Disposition Procedures Need to Be Improved



        F. Collaborated with TIGTA’s Office of Investigations and obtained information
           regarding open and closed investigations involving lost/stolen information technology
           equipment.
        G. Identified FEA in the KISAM system designated as lost/stolen/missing and selected a
           judgmental sample of 30 from 2,166 FEAs.
        H. Conducted Forrester Research Inc.3 research and identified articles on information
           technology inventory write-off practices and/or shrinkage rate, i.e., how much
           theft/loss is acceptable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: GSA Bulletin FMR B-34, NIST 800-88,
and the IT and REFM organizations’ policies and procedures relating to the disposition of FEA.
We evaluated these controls by interviewing IRS management and staff from the UNS, REFM,
and Cybersecurity organizations; reviewing policies and procedures outlined in the IRM; and
reviewing relevant supporting documentation.




3
 Forrester Research Inc. is an independent technology and market research company that provides advice on
existing and potential impacts of technology to its clients and the public.
                                                                                                       Page 16
              Used Information Technology Assets Are Being Properly Donated;
                   However, Disposition Procedures Need to Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
Myron Gulley, Audit Manager
Diana Tengesdal, Audit Manager
Chinita Coates, Lead Auditor
Ryan Perry, Senior Auditor
Allen Henry, Auditor
Sarah Shelton, Auditor
Ashley Weaver, Auditor




                                                                                     Page 17
             Used Information Technology Assets Are Being Properly Donated;
                  However, Disposition Procedures Need to Be Improved



                                                                            Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Director, Real Estate and Facilities Management OS:A:RE
Director, Operations Service Support OS:CTO:UNS:OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 18
        Used Information Technology Assets Are Being Properly Donated;
             However, Disposition Procedures Need to Be Improved



                                                               Appendix IV

                    Sample Certification Letter




Source: NIST 800-88, September 2012. PC = Personal Computer.




                                                                    Page 19
                Used Information Technology Assets Are Being Properly Donated;
                     However, Disposition Procedures Need to Be Improved



                                                                                        Appendix V

                      Flowchart of Disposal Process




Source: IRM 2.14.1, Asset Management, Information Technology (IT) Asset Management, November 2011.




                                                                                                 Page 20
   Used Information Technology Assets Are Being Properly Donated;
        However, Disposition Procedures Need to Be Improved



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 21
Used Information Technology Assets Are Being Properly Donated;
     However, Disposition Procedures Need to Be Improved




                                                        Page 22
Used Information Technology Assets Are Being Properly Donated;
     However, Disposition Procedures Need to Be Improved




                                                        Page 23
Used Information Technology Assets Are Being Properly Donated;
     However, Disposition Procedures Need to Be Improved




                                                        Page 24
Used Information Technology Assets Are Being Properly Donated;
     However, Disposition Procedures Need to Be Improved




                                                        Page 25
